NO 20-5701
IN THE

Supreme Court, U.S.
FILED

SUPREME COURT OF UNITED STATES

DEC VI 2020
OFFICE OF THE CLERK

PRAKASH NARAYAN
APPELLANTS

RABINDRA PRASAD
RESPONDENT
ON PETITION FOR WRIT OF CERTIORARI TO THE UNITED STATES COURT
OF APPEALS FOR THE CLAIFORNIA SUPEREME COURT

PETITION FOR REHEARING

Dated: 12/11/2020
Prakash Narayan
Appellants
7278 Munson Way
Sacramento, CA 95823
Telephone No 916-422-7278

PUBLIC CORRUPTION, CORRUPT COURT, CORRUPT JUDGES
AND CORRPUT ATTORENY CASE

-571/

Supreme Court, U.S.
- FILED

PETITION FOR REHEARING
Pursuant to Supreme Court Rule 44.1, Prakash Narayan and Payal Naray n
respectfully petitions for rehearing of the Court's decision to denying writ on

DEC 1 1 2020

OFFICE OF THE CLERK

November 16, 2020. Narayna v. Prasad, No. 20-5017 moves this Court to grant this
petition for rehearing and consider their case with merits briefing and oral
argument. Pursuant to Supreme Court Rule44.1, this petition for rehearing is filed
within 25 days of this Court's decision in this case. This petition is not regarding
ordinary hearing, trial so on. Narayan's is asking Supreme Court to intervene to
stop all forms of public corruption in the court. This petition is for rehearing and
writ was filed public corruption corrupt, corrupt judges and attorney.
Petition for rehearing appellants are fling in good faith appellants had been
harmed with public corruption. Supreme Court only added fuel to fire to open public
corruption by denying writ without brief. Appendix news 1 article judges choose
constitution than Trump. In this writ justice choose to support public
corruption than constitution. Issues are not same many are different.

REASONS FOR GRANTING THE PETITION
Open public corruption and keeping trial in total dark from appellants and
providing court documents to respondent attorney only. Crime committed by Judge
Culhane, Judge Hershey, Judge Brown and attorney of records by keeping trial
secret from appellants.
This petition for rehearing and writ was not an ordinary writ or rehearing but
open public, corruption, corrupt judges, corrupt clerk and attorney.
Violation of California Penal Coe Section112-117 "none other than court
Judge Culhane, Iudge Brown, Judge Hershey and attorney David Crowdis" and
details are bellow.
Violation of 18 U.S .Code§15.19, Destruction, Alternation of Falsification of
records. As both parties were leaving court in the morning attorney of records for
plaintiff was called and handed court document and by law both party should get
entire court documents.
25 CFR § 11.440 Tampering With or Fabricating Physical Evidence. Phony and
fraud document that was created by Judge Culhan and hand to attorney for plaintiff
and not appellants.

Perjury (18 U.S. Code § 1621 - Perjury generally) committed by Judge committed by
judges, attorney of records and clerk.
Violation of California Penal Code 135C Concealing Evidence
42 CFR § 1001.1552 MAKING FALSE STATEMENTS OR
MISREPRESENTATION OF MATERIALS OF FACTS
MISREPRESENTATION OF MATERIAL OF
CIVIL FRAUD (25 U.S. 247, 8 S.Ct. 881, 31 L.Ed. (1887)
VIOLATION OF SEVENTH AMENDMENT RIGHT (Article III, § 2)
VIOLATION OF SIXTH AMENDMENT RIGHT
VIOLATION OF FOURTEEN AMENDMENT RIGHT
I.

Should the Most Demanding Standard of Rehearing are justices going

to support Public Corruption or Support the Constitution by stopping all
forms of public Corruption. Open Public Corruption, Court, Corrupt
Judges, Clerk and Attorney Where No State Appellate Court California
Reviewed the Claim.
Third District Court of California added fuel to fire by denying notice of appeal
as untimely for an order denying JNOV made on December 21, 2017.
"NOTICE APPEAL FILED ON JANUARY 17, 2018 FROM DECEMBER 21,
2017 TO JANUARY 17, 2018 IS 27 DAYS NOT 30 DAYS"
California Supreme Court added more fuel to fire by denying appeal in less
than 2 hours. California Supreme Court recently made ruling trial Scott Peterson vs.
California who murdered his pregnant wife was not fair. Jury panel selected had
problem after one of the Juror wrote books and did not disclose she was abused by
her husband. Reasons Mr. Peterson case reviewed case had huge publicity and is
white.
In this case appellant was not allowed denied by judge to have jury, no attorney
was allowed, no cross examination to confront witness, no expertise witness was
allowed no deposition was allowed, no exhibits was allowed, fraud trial, public
corruption , corrupt court, corrupt clerk, corrupt judges and attorney.
Just because appellants above was not represented not white minority and judges
sided with corrupt attorney and not huge publicity case.
California Supreme Court denied appeal of 1998 Fake Jury Panel trial where
entire jury were from Same Hospital 16 years old Filipino Alma Thomas because he
2

was not white but Filipino. Parents of Thomas left US and went back to Philippines
after losing trust in court system and pubic corruption.
II. Is Applying to the US Supreme Court to Denounce entire forms of
Public Corruption, Court Judges, Corrupt Clerk and Attorney that started
in 1998 and now in this Rehearing. Justices in Rehearing has to declare are
they gong to support public Corruption or the Constitution they took oath
of.
The U.S. Constitution Bill of Rights (under the Sixth Amendment) guarantees the
right to a speedy trial with an impartial jury for criminal defendants in federal
courts. The 14th Amendment's Due Process clause extends these rights to state
courts.
While the Constitution expressly outlines the right to a jury trial, it doesn't
explicitly include the right to have a "fair trial". However, in guaranteeing other
trial rights, the Constitution provides the safeguards for a fair trial. Such rights
include:
The right to an impartial jury;
The right to due process of law;
The right to confront/call witnesses; and
The right to legal counsel.
The Seventh Amendment In Suits at common law, where the value in controversy
shall exceed twenty dollars, the right of trial by jury shall be preserved, and no fact
tried by a jury, shall be otherwise reexamined in any Court of the United States,
than according to the rules of the common law.
The Fourteen Amendment Right Section 1.
No state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any person of
life, liberty, or property, without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.
Equal Protection of Laws
Civil Rights
II. Is Applying the Demanding To Deny All and Entire forms of Public
Corruption, Corrupt Judges , corrupt Attorney and Clerks. Uphold the

3

Sixth Amendment Rights, Seventh Amendment Right and Fourteen
Amended.
Justice has to choose from this rehearing if they are going to choose Public
Corruption or uphold the constitution they took the oath. Writ was denied without
brief and merit of public corruption.
Naravan's condemns as loud they can entire forms of public corruption, corrupt
court, corrupt clerks and attorney. Judge's clerks and attorney should be held
accountable of public corruption and face criminal investigation and face full brunt
of law.

CALIFORNIA PENAL CODE SECTIONS 112-117 JUDICIAL
AND PUBLIC RECORDS AND DOCUMENTS
Judge Culhane violated penal code by creating fake court document and providing
document to plaintiff attorney only. Judge Culhane orchestrated to
have fake trial and provide documents only to plaintiffs attorney as both parties
were living court room. Plaintiff attorney was called and provide order that was not
provide to both parties which is appellants. In the fraud, fake phony trial Judge
Hershey used perjured document as the documents to us for trial. Judge Hershey
state she will going along with trial documents was "'ONLY"' provided to plaintiff
counsel.
Appendix ZB document that was provided to plaintiff counsel is wholesale
violation penal code by Judge Culhane and go to jail. Web site picture taken from
court web site was last document on the docket. This document was only given
attorney of records of the plaintiff. Judge Culhane committed crime of the above
Penal Code when he created "PHONY" document.
Judge Hershey aided and abetted pubic corruption is guilty judicial misconduct
and violated above penal using phony documents as bases for trial. It's Judge and
attorney's ethic duty to report to authorities of impropriety in the court. Judge
Culhane who called Judge Hershey from criminal trial fully guilty of aiding and
abetting public corruption and judicial misconduct.
Judge Hershey aided and abetted public corruption in violation of penal
Code 1123-117 used perjured, phony and fake document and conduct fraud
under duress.

4

Upon returning from fake trial defendants went court web side and determine
last document created by court was the that was provide to appellants basis of the
trial.
Appendix 2 is civil process how case proceeds after complaint is filed.
Discovery was not completed out of blue fraud trial because of corrupt judges and
corrupted attorney in violation of above penal code.
Neither plaintiff nor defendants file for trial pool out of blue fraud trial
because of corrupt judges and corrupted attorney in violation of above penal code
fraud, phony and fake trial took place.
There was no pretrial conference out of blue fraud trial because of corrupt
judges and corrupted attorney in violation of above penal code.
CORRUPT COURT
Is public corruption
CORRUPT JUDGES
Is public corruption
CORRUPT ATTORNEY
Is public corruption
FRAUD TRIAL
Is public corruption
FILING CLAIM IN SMALL CLAIMS
Getting with false proof service is for unpaid Chiropractor bill is public corruption
and in Superior Court
Is public corruption
OBTAIN FRAUD JUDGMENT
Obtaining fraud judgment for unpaid Chiropractor bill with fraud proof service is
public corruption. You can not have unpaid Chiropractor bill claim filed in Smalls
Claims Court and than in Superior court. As plaintiff once you chose to file Small
Claims Court claims you lose your rights to file claim in another court and loss
appeals rights.
"Not according Judge Hershey who stated no you can file as many times
you want and many court as you want because she is corrupted judge like
hell"

5

18 U.S. CODE § 1519.DESTRUCTION, ALTERATION OR
FALSIFICATION OF RECORDS
Appellants incorporates above which was also violates Feared above laws.
Judge Culhane orchestrated by created phony document and gave to attorney of
records only as all parties were leaving court. Judge Culhane phony document was
not provided to appellants.
Corrupt Judge Culhane created fake documents and gave copy only to plaintiff
counsel and corrupt Judge Hershey, counsel both aided abetted public corruption.
Document was last created based on the court web site was the document cited by
Jude Hearsay for trial. This document is the documents that can not be use for trial.
There steps up for civil trial appendix 2. There are civil cases procedures are in place
and out of blue no cases go on trial without the process stated in appendix 2.
Supreme Court Justices highest court of the land ignored this by denying the writ.
Judge Culhane violated above laws to have fraud, fake and phony trial.

49 CFR § 1570.5 FRAUD AND INTENTIONAL
FALSIFICATION OF RECORDS
With above incorporation of the above laws was violated by Judge Culhane
created phony document and set up fraud trial out of blue. Entire attorney and
parties waited for Judge Culhane in the court for several hours while Judge Culhane
was making "DEAL" with Judge Hershey to have fraud trial. Everyone in the court
was anxious what was going on waiting in the court for many hours. Judge Culhane
while deal was being made behind the in the chambers.
Judge Hershey who was in the criminal trial came rushing to department 45 and
conduct 'FRAUD, PHONY AND BOGUS TRIAL"' using fraud document that was
not provided to appellants.
Judge Culhane created fraud, phony and fake document set trial and refused to
provide both parties why are parties being asked to come to court at 1.30 p.m"
Judge Culahne violated above laws to have fraud, fake and phony trial.
"(b) Makes, presents or uses any record, document or thing knowing it to be false
and with the purpose to mislead
Plaintiff incorporates above Judge Culhane made fake and phony document and
set fraud trial. Judge Culhane was asked by attorney "but we were here to show
cause so what are we coming at 1.30 p.m for"

6

In an open court Judge Culhane acted he was very honest truthful and fair stated
"just come at 1.30 p.m" however judge answer just come at 1.30 p.m sound very
"suspicious"
Judge Culhane kept it to his chest by stating just come 1.30 p.m for trial so
appellants could
Bring they attorney (not possible to bring attorney in couple of hours there will
be fraud and phony trial)
Bring witness (not possible and without knowing there will be fraud and phony
trial)
Request plaintiff witness list (not passable without knowing there was fraud
and phony trial)
Appellants would not come to court empty hand in a fraud and phony trial and
not even said a single word because both appellants was totally lost.
False, fake and phony documents and only provided to attorney of records of the
plaintiff. Appendix ZC attached in the writ picture that was taken from Sacramento
Court California website. Last documents were created that was provided by
attorney of records to Judge Hershey for fraud trial stated.
Appendix 2 set process for trial and not on the choice of judge by creating phony,
fake and perjured documents.
Fake and phony trial was fraud and nothing than fraud on the hands of
Corrupt Judge Culhane lead master who orchestrated by creating phony and fake
court document.
Judge Hershey who aided and abetted public corruption
Attorney of records for plaintiff by aiding, abetting and accessory after the fact.

PERJURY
(18 U.S. Code § 1621 - Perjury generally)
Judge Culhane committed perjury by issuing court document which was phony
and fake and gave to attorney of record supposed to be true but it was false.
Document crated to be true and never given to appellant was false. Similar
document was received by appellants prior to phony and fake document arose not
constitutes trial. Appendix 2 is the process of trial and made with Judge Herhsey to
continue fraud and phony trial is public corruption. After calling case briefly Judge

7

Culhane disappeared from court room to create fake, phony documents, fake and
phony trial.
Judge Culhane committed perjury by creating fraud, fake, phony trial and
crated phony document
Judge Hershey comminuted perjure using fake and phony'documents for trial
Paula clerk from debarment 59 committed perjuries when stated she has no
phone number, no date and time she called appellant but she did call. She was not
able to leave voice mail message because phone was disconnected.
Appellant's phone was not disconnected and every voice mail left of appellants
phone goes to appellants email.
"NO MATTER WHERE IN THE WORLD APPELLANTS ARE NO MATER
IF THE PHONE IS DISCONNECTED ANY VOICE MAIL MESSAGE LEFT
GOES TO EMAIL AND ANY WHERE IN THE WORLD APPELLANTS CAN
GET THAT MESSAGE AS LONG THERE IS INTERNET TO ACCESS EMAIL"
"` Paula committed perjury she did not call appellants she has no phone
number, no date and no time'''.
Attorney of records Crowdis committed perjury by signing proof of service under
penalty of perjury dated January 12, 2015 but complaint was filed on April 13, 2015
cross complaint filed October 3, 2015. See attached appendix in the writ.
Attorney of records committed perjury by mailing discovery response after
appellants filed third motion to compel and to dismiss complaint. Judge made an
order attorney of records to file discovery response no later than July 11, 2016. Proof
of service states August 4, 2016 appellants was served discovery response. Discovery
response is dated July 25, 2016.
On August 10, 2016 judge order to send verification via email neither court did
not have verification nor had appellants. Verification received by appellants
September 1, 2016 was back dated to July 25, 2016 attorney committed perjury.
"No verification was received by court and appellants until August 10, 2016 after
court made on August 10, 2016 to provide verification via email verification received
after August 10, 2016 perjury was committed by attorney by dating verification to
July 25, 2016"
On August 10, 2016 court had no verification nor appellants

8

ON AUGUST 10, 2016 COURT ORDERED ATTORNEY OF RECORDS TO
PROVIDE VERIFICATION VIA AN EMAIL TO APPELLANTS AND TO PROVIDE
COPY TO COURT HOPE THIS IS CLEAR TO JUSTICES.
Appendix ZK post office notice states September 1, 2016 when notice was
deliver for appellants to pick certified mail.
Appendix ZK verification dated is July 25, 2016
"' ATTORNEY OF RECORDS COMMITTED PERJURY WITH ABOVE 4
CITED ISSUES"'
Attorney of records committed perjury by proving fake and phony document for
fake, phony and fraud trial committed perjury by stating he received notice for trial.

CALIFORNIA PENAL CODE 135C CONCEALING
EVIDENCE
Attorney of records did not disclose to Judge Herhsey document that he was
provided in the morning was the same document he use to have fraud trial.
Attorney of records concealed evidence that he was the only provided document
when parties were leaving court. Attorney records violated penal code135c by not
disclosing how he received documents. As a professional attorney he should know
every document created in the courts are to be provide to all parties.
Attorney of records concealed evidence how he came know about the trial at 1.30
p.m when in the morning her asked why he was coming at 1.30 p.m? Attorney of
records failed disclose he was called by court to come at 1.30 p.m for fraud, fake and
phony trial. In the morning attorney of records came to court empty hand at 1.30
p.m he came with bunch of files for fraud, fake and phony trial.

42 CFR § 1001.1552 MAKING FALSE STATEMENTS OR
MISREPRESENTATION OF MATERIALS OF FACTS
Judge Culhane manufactured document that was false and provide copy ONLY
to attorney of records for plaintiff. This document was prepared falsely by Judge
Culhane and handed to attorney of records as parties were leaving court and asked
to come back at 1.30 p.m.
Attorney of records and appellant's both asked Judge Culhane what they were
coming at 1.30 p.m. Both parties were explained to just come at 1.30 p.m with no
explanation. Judge Culhan knew document he created was phony, fake and false.
Judge Hershey knew appellants never received documents however she continued

9

with 'PHONY, FAKE AND FRAUD TRIAL"' document in .the morning was only
provided attorney of records. Judge Hershey instead of correcting "'MESS OF
OPEN PUBLIC CORRUPTION"' aided and abetted public corruption. Judge
Hershey continued with fraud, phony and fake trial using Judge Culhane's phony,
fake and fraud document.

MISREPRESENTATION OF MATERIAL FACTS
With above public corruption incorporated Judge Culhane created phony
document and only provided copy to attorney of records. Judge Culhane
orchestrated and manufactured fake and phony document fraud phony and fake
trial
As all parties were asked to come to court at 1.30 p.m attorney of records and
appellant both asked why?
"` WHY ARE WE COMING TO COURT DEPARTMENT 45 AT 1.30 P.M
ANSWER JUST COME ATTORNEY OF RECORDS THAN ASKED WE WERE
HERE FOR TO SHOW CAUSE WHY APPELLANT DID NOT FILE
SETTLEMENT CONFERENCE STATEMENT"'
BOOM: In the hands of corrupt Judge Culhane, Judge Hershey and corrupted
attorney had "FRAUD TRIAL" using fake and phony martial for trial. Our Justices
at the Supreme Court ignored these facts eyes are "'CLOSED"' they can not see open
public corruption is the reason writ was denied.
Trial was only informed to attorney of records by phone call not the time attorney of
records in an open court asked "Well were here to show cause order of court"
Phony documents was used to have "Fraud, Phony and Fake" trial and trial
dose not takes place as Appendix 2 states the process not with a phony and fake
documents notice. Judge Culhane misrepresented by stating to just come 1.30 p.m
using phony and fake document as the basis of trial.

CIVIL FRAUD
(25 U.S. 247, 8 S.Ct. 881, 31 L.Ed.• (1887)
Due to open pubic corruption civil fraud was conducted using by committing
perjury, Judge Culhane committed civil fraud.
Judge Hershey aided and abetted perjury, civil fraud and attorney of record
accessory after the fact of public corruption.

10

Trial was bogus, fraud, phony and fake Supreme Court has only one duty to make
sure entire court follows laws of US and state.
Having secret, fraud, phony and fake trial judgment should be vacated in the Small
Claims Court and Superior court.
Request appeals court to investigate open pubic corruption.
Request DOJ to investigate open public corruption
FBI to investigate public corruption

UNCONSTITUTIONAL JUDGMENT
Fraud, take, phony trial and judgment is unconstitutional with public
corruption, corrupted judges, perjury, trial without jury, denying attorney, denying
both parties' exhibits are unconstitutional.
Trial by fraud is unconstitutional and illegal.
"Fraud, fake trial and having order from Small Claims Court of unpaid
Chiropractor bill and Judgment for unpaid bill from Superiot Court is
unconstitutional and illegal conduct by Judge Culhane, Herhsey David Crowdis
attorney"
"'JUDGMENT IS UNCONSTITUTIONAL YOU CAN NOT HAVE TWO
JUDGMENT SUCH DEATH SENTENCE AND LIFE SENTENCE FOR ONE
CRIME AS IN THIS ORDER AND THE JUDGMENT IS
UNCONSTITUTIONAL"'

SIXTH AMENDMENT RIGHT OF US CONSTITUTION
Violation of The U.S. Constitution Bill of Rights (under the Sixth Amendment)
guarantees the right to a speedy trial with an impartial jury for criminal defendants
in federal courts. The 14th Amendment's Due Process clause extends these rights to
state courts.
While the Constitution expressly outlines the right to a jury trial, it doesn't
explicitly include the right to have a "fair trial". However, in guaranteeing other
trial rights, the Constitution provides the safeguards for a fair trial. Such rights
include:
The right to an impartial jury;
The right to due process of law;
The right to confront/call witnesses; and

11

The right to legal counsel.
"'Appellants was denied to bring attorney by Judge Hershey who told appellant
you are not allowed to bring attorney and when appellants insisted appellants
were threaten arrest and sheriff was called

VIOLATION OF SEVENTH AMENDMENT RIGHT
(Article III, § 2)
Seventh Amendment Right of the constitution guarantees jury trial. Due to
corrupt judges and attorney fraud, secret and phony trial was held without jury.
Appellants seventh Amendment right was violated. On appellants request for jury
trial appellants were threaten for arrest and sheriff was called in the court. Due the
fact Justices eyes are closed a clear naked violation of had been condone by Justices.
Under the laws of US and constitution all laws are made congress not justices or
judges. Justice and judges are to follows of the rule of the land and they are not
above the law.
Due to justices failed to follow the laws Manhattan DA and Trump case was
returned by seven justices to DA in Manhattan which is against the laws. Congress
made the laws "NO ONE IS ALLOWED TO OBTAIN TAX RECORDS OF ANY
TAXPAYERS WITHOUT POWER OF ATTORNEY, AUTHORIZATION TO
REPRESENT AND SIGNED FORM 4506T"
Seven justices failed to uphold the laws passed by congress returning the case to
Manhattan court.
Scott Peterson vs. California murder trial overturned because of not getting fair
jury. In this case appellant was outright denied jury, no jury at all, no
attorney, no witness, no exhibits, no cross examination, no expert witness
and so on California Supreme Court denied appellants motion in less than 2 hours
further violating appellants constitution rights.
Amendment VII
In suits at common law, where the value in controversy shall exceed twenty
dollars, the right of trial by jury shall be preserved, and no fact tried by a jury, shall
be otherwise reexamined in any court of the United States, than according to the
rules of the common law. Trial was kept secret until appellants arrived at court at
1.30 p.m who were asked by Judge Culhane to come. When asked by appellants
and attorney of records what are coming to court at 1.30 p.m answer was just come.

12

Behind the scene attorney records was called and informed of the trial who came
trial little prepped but no files, no exhibits and so on and stated he was informed of
the trial and gave documents there was trial. In the fraud trial when appellants
asked Judge Hershey we don't have jury answer appellant was told you not allowed
jury. We don't' we have our attorney appellants were told you are now allowed to
have attorney.
Appellants than asked we have don't' witness judge than told you are not allowed
to bring or call witness so on.
Appellants was not allowed have put plaintiff on stand confront due the threat of
arrest.
Violation Seventh Amendment Right of have no jury trial.

FOURTEEN AMENDMENT RIGHT OF US CONSTITUTION
Right Section 1.
No state shall make or enforce any law which shall abridge the privileges or
immunities of citizens of the United States; nor shall any state deprive any person of
life, liberty, or property, without due process of law; nor deny to any person within
its jurisdiction the equal protection of the laws.
Equal Protection of Laws was violated as stated.
Civil Rights with the violation stated
Due Process right with the violated stated.

DEMANDS FOR ORAL ARGUMENT
Due to open and open public, naked corruption and justice ignoring facts
appellants is demanding for oral argument on rehearing with media available to
witness full oral argument on TV witness by entire public and media presence. Oral
arguments will be based in the writ, appendix, constitution, civil rights violation. It
will also include issue brought by appellants in the rehearing questions that was
asked and in the writ state and US laws.

APPELLANTS HAS BEEN HARMED BY
Corrupt judges, corrupt attorney, corrupt court system, two judgments for one

13

unpaid chiropractor bill, Criminal Conduct, Civil Fraud, Concealment of Material
Facts, Gross Negligence, Breach of Fiduciary Duty, Two General Duties, DUTY OF
LOYALTY, DUTY OF CARE. TRIAL BY FRAUD Trial by threat
Violation of Fourteen Amendment Rights of appellants as stated in the writ
Violation of Equal Protection as stated in the writ
Appellant denied taking deposition
Appellants denied providing exhibit in the fake trial
Appellants denied obtaining exhibit from plaintiff in the trial
Miscarriage of justice
Appellants was denied to bring witness
Appellants was denied to put plaintiff on stand and cross examine
Appellants was denied to ask question in the fraud, fake trial and stopped by fake
trial judge
Not getting fair trial, not knowing there was trial

CONCLUSION
Narayan's respectfully requests that this Court grant the petition for rehearing
and order full briefing and argument on the merits this case.
Denying writ is justice supports public corruption, corrupt court and corrupt
judges since 1998 fake jury panel.
Since Justice ignored naked and open public corruption so please explain
answer why it's past 30 days or untimely notice of appeal filed when notice was filed
in 27 days?
Only appellants motion was granted as unopposed (not really unopposed)
because motion filed to extend time did not had department was returned to file
with department number was granted as unopposed. Appellant did not file with
department because appellant was out of country. Motion appellants filed was dated
selected conflict with appellant's schedule. Appellant was going out country. By the
rejection came to type department and file again appellants was already out of
Country. Court knows which department motions are filed could have file with
department number. Appellants three unopposed motion

was denied because

they were unopposed and granted in favor of appellants by dismissing complaint for
unable to prosecute. Justices ignored the facts to see this public corruption by

14

denying the writs.
Cross compliant was filed on October 3, 2015 and complaint was filed on
April 15, 2015 proof service filed on January 12, 2015 some "t9 MONTHS before cross
complaint was filed proof of service was defective.
Justices ignored those who denied the writ serious breach of constitution proof of
service can not be filed without filing complaint and before complaint was filed?
This is miscarriage of justice by Supreme Court which should review in rehearing.
In anther case appellant attorney not oppose ex-pate motion was unopposed
Narayan vs. Wells Fargo Bank was court granted to Wells Fargo Bank motion
because it was unopposed and complaint was dismissed not in this case.
"THREE MOTION WERE UNOPPOSED AND THOSE THAT WERE
OPPOSED WITH 2 LINES ONLY AND THE 3 MOTION THAT WAS
UNOPPOSED WAS DENIED BECAUSE THEY WERE UNOPPOSED"
So most case unopposed party who moves motion are granted but not in this case
Justices ignored the facts of this public corruption.
Backdating public records are crime as per appellant's appendix but not
according judges and Justices is not seeing this public corruption due the fact writ
denied why. Appendix attached Judges, attorney and clerk were indicted for back
dating because its illegal back date court document.
"'Discovery response was dated July 25, 2016 proof of service is August 4, 2016"'.
Judgment should be vacated Judge Culhane, Hershey Brown and David
Crowdis attorney for plaintiff pay $500,000.00 each to Pacific Inlanders and Asian
community as restitution and State of California pay 2 million dollars to appellants
for cover up of public corruption and Federal DOJ, FBI pay 5 million dollars for
adding and abetting public corruption. Case should order to dismiss for attorney
violation of court orders, discovery act so on. Judge Culhane, Hershey, Brown and
attorney Crowdis should be jailed for treason.
Appellants will create a history if justices do not stop all forms of public
corruption and fraud trial by filing tort claim with US Claims department and
solicitor general against Supreme Court of United States of America.

Dated: December 11, 2020
Appellants Prakash Narayan
15

Additional material
from this filing is
available in the
Clerk's Office.

